>

CERTIFICATE OF COMPLIANCE
No. 07-

Lassissi Afolabi
Petitioner
v.

WARDEN FORT DIX CFI
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8989 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 12, 2021

Las sis si Afolabi

RECEIVED
APR 2 0 2021
SUPREMEFcnfi£LF/lK

